FOR IMMEDIATE RELEASE                                                    July 11, 2014
Media Contact: 202-565-3908

        Business Owner and Exporter Sentenced in Scheme to Defraud
                 the Export-Import Bank of the United States

Washington, DC – The Office of Inspector General (OIG) for the Export-Import Bank
of the United States (Ex-Im Bank) announced that the owner of a construction
company in Mexico was sentenced to serve 24 months’ probation for his role in a
scheme to defraud Ex-Im Bank of approximately $1 million for a fraud scheme
orchestrated during 2006.

Jose Mirabent-Paez, 42, was sentenced by Judge Kathleen M. Williams in U.S. District
Court in Miami, FL. Mirabent, a citizen of Mexico, pled guilty at the joint guilty plea
and sentencing hearing on July 10, 2014. Mirabent pleaded guilty to one count of
making a false statement on a loan and credit application, in connection with a
scheme to defraud the Ex-Im Bank of approximately $1 million.

According to court documents, Mirabent was the owner of Cauferrat, S.A., a
construction company in Mexico City, Mexico. The court documents state that
Mirabent falsely stated to a Miami, FL bank that Mirabent was going to use Ex-Im
Bank guaranteed loan proceeds to purchase approximately $1 million worth of
construction equipment. In reality, Mirabent did not use the loan proceeds to
purchase the equipment as purported to the Miami bank and to Ex-Im Bank.

A related defendant, Victor Arana de la Garza, pleaded guilty to conspiracy to
commit wire fraud in U.S. District Court in Miami before Judge Adalberto Jordan on
August 18, 2011. On December 8, 2011, Judge Jordan sentenced Arana to six (6)
months in prison and 24 months’ probation. Arana was also ordered to pay $17,500
in forfeiture. Arana, 52, of Houston, TX worked for Global Structured Trade
Solutions and conspired to submit various false documents to a Miami, FL bank and
Ex-Im Bank on behalf of Cauferrat, S.A. The Ex-Im Bank guaranteed loan defaulted,
causing a loss of approximately $299,849. The original loan amount was close to $1
million, but approximately $700,000 was paid on the loan before default. Upon
Arana’s sentencing, all of the restitution was re-paid to Ex-Im Bank.

The U.S. Attorney’s Office, Southern District of Florida, Miami Division prosecuted
the case. The case was investigated by Ex-Im Bank OIG and Homeland Security
Investigations in Houston, TX.




                   811 Vermont Avenue, NW Washington, D.C. 20571
Ex-Im Bank is an independent federal agency that helps create and maintain U.S.
jobs by filling gaps in private export financing. Ex-Im Bank provides a variety of
financing mechanisms to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional
information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations
can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
